No. 19-755
IN THE

Supreme Court of the United
States
_________
ROBERT C. STEINER AND WENDY STEINER-REED,
Petitioners,
v.
UTAH STATE TAX COMMISSION
Respondent.
_________
On Petition for a Writ of Certiorari to the
Supreme Court of the State of Utah
_________
BRIEF AMICUS CURIAE FOR THE
AMERICAN LEGISLATIVE EXCHANGE COUNCIL
IN SUPPORT OF PETITIONERS
_________
JONATHON P. HAUENSCHILD
Counsel of Record
BARTLETT CLELAND
AMERICAN LEGISLATIVE
EXCHANGE COUNCIL
2900 Crystal Dr., Ste. 600,
Arlington, VA 22202
Main - (703) 373-0933
jhauenschild@alec.org
Counsel for Amicus Curiae

i
QUESTION PRESENTED
Whether a tax scheme that discriminates against
foreign income earned by subjecting it to double
taxation, when income earned from domestic sources
is not subject to the same scheme, discriminates
against foreign commerce in violation of the dormant
Commerce Clause.

ii
TABLE OF CONTENTS
QUESTION PRESENTED.......................................... i
TABLE OF CONTENTS ............................................ ii
TABLE OF AUTHORITIES...................................... iii
IDENTITY AND INTERESTS OF AMICUS CURIAE
......................................................................................1
SUMMARY OF ARGUMENT .....................................4
ARGUMENT ...............................................................7
A. The Founders’ Original Understanding of the
Foreign Commerce Clause Would Prevent States
from Discriminating Against Foreign Commerce ..8
B. The Utah Supreme Court Failed to Conduct the
“more extensive constitutional inquiry” required by
Complete Auto and Japan Line, Ltd. .................... 11
C. The Commerce Clause Does Not Distinguish
Between Individuals and Corporations ................ 14
D. State Double Taxation Is A Powerful
Disincentive for Foreign Investments and Risks
Establishing National Policy ................................. 17
CONCLUSION .......................................................... 22

iii
TABLE OF AUTHORITIES
Cases
Barclays Bank PLC v. Franchise Tax Bd. Of
California, 512 U.S. 298 (1994) ............................. 13
Brown v. State of Maryland, 25 U.S. (12 Wheat.) 419
(1827) ...................................................................... 10
Complete Auto Transit, Inc. v. Brady, 430 U.S. 274
(1977) .............................................................. passim
Comptroller of the Treasury of Maryland v. Wynne,
575 U.S. ___, 135 S.Ct. 1787 (2015) .............. passim
Japan Line, Ltd. v. Los Angeles County, 411 U.S. 434
(1979) .............................................................. passim
Kraft General Foods, Inc. v. Iowa Department of
Revenue and Finance, 505 U.S. 71 (1992) .... passim
South Dakota v. Wayfair, 585 U.S. ___, 138 S.Ct.
2080 (2018) ............................................................. 11
Steiner v. Utah State Tax Commission, 449 P.3d 189
(Utah 2019) .................................................. 8, 13, 15
Statutes
26 U.S.C. § 901 .......................................................... 20
UTAH CODE ANN. § 59-10-1003.................................. 17
UTAH CODE ANN. § 59-10-104.1................................. 17
UTAH CODE ANN. §§ 59-10-104 .................................. 17
Other Authorities
1 COMMENTARIES ON AMERICAN LAW *439 (12th ed.,
O. W. Holmes, Jr., 1873)........................................ 10

iv
2019 Utah Senate Bill No. 2001, 63rd Legislature –
2019 Second Special Session ................................. 17
American Legislative Exchange Council, ALEC
Principles of Taxation (2010, renewed 2019)..........3
Bureau of Economic Analysis, U.S. Department of
Commerce, BEA 19-19, GROSS DOMESTIC PRODUCT
BY STATE, FOURTH QUARTER AND ANNUAL 2018 .... 19
Evan Haynes, Trump’s Trade Wars Have Mobilized
Canada’s Dairy Cartel, Reason (Jul. 24, 2018) .... 21
GUIDE TO GOING GLOBAL: TAX, DLA Piper (2019) .... 20
Internal Revenue Service, UNITED STATES INCOME
TAX TREATIES – A TO Z ....................................... 6, 20
Mary Beth Lougen, Alleviating Double Taxation on
Foreign Income at the State Level, Tax
Management Multistate Tax Report (Bloomberg
BNA), 2014 WSTR 42, Oct. 17, 2014........... 5, 18, 19
Rich States, Poor States: ALEC-Laffer State
Economic Competitiveness Index,12th ed.
(American Legislative Exchange Council), 2019 ...2,
19
Sarah Gray, These Are the Biggest U.S. Trading
Partners, Fortune (Mar. 7, 2018),
https://fortune.com/2018/03/07/biggest-us-tradepartners/ ................................................................. 20
THE FEDERALIST NO. 12 at 123-124 (Alexander
Hamilton) (John C. Hamilton, ed., 1998).......... 5, 10
THE FEDERALIST NO. 42 at 329 (James Madison)
(John C. Hamilton, ed., 1998) ............................... 10
US-China Trade Deal Will Be Signed on January 15:
Trump, Business Today (Jan. 1, 2020),

v
https://www.businesstoday.in/current/world/uschina-trade-deal-will-be-signed-on-january-15trump/story/392961.html....................................... 21
Treatises
Randy E. Barnett, The Original Meaning of the
Commerce Clause, 68 U. CHI. L. REV. 101-147
(2001) ........................................................................9
Constitutional Provisions
U.S. Const. Art. I, § 8 ..................................................7

1

IDENTITY AND INTERESTS OF AMICUS
CURIAE
Pursuant to Supreme Court Rule 37, the American
Legislative Exchange Council (ALEC) respectfully
submits this brief amicus curiae in support of
Petitioners Robert C. Steiner and Wendy SteinerReed.1
ALEC is a nonprofit, tax exempt corporation
headquartered in the Commonwealth of Virginia for
the purpose educating state legislators and operating
as a forum for the exchange of ideas, developing real,
state-based solutions to encourage growth, preserve
economic security and protect hardworking
taxpayers. Roughly 25 percent of all state legislators
are members.
ALEC has been a force discussing tax policy and
the implications thereof for decades, especially in the
context of educating state legislators on what pro-free
market and enterprise tax policy looks like. The power
to tax is a necessary incident of state sovereignty.
While necessary, the power to tax is limited and, if
overused, may damage a state’s economic outlook or
Pursuant to this Court’s Rule 37.3(a), all parties have
consented to the filing of this brief.
1

Pursuant to Rule 37.6, Amicus Curiae affirms that no counsel for
any party authored this brief in whole or in part, and no counsel
or party made a monetary contribution intended to fund the
preparation or submission of this brief. No person other than
Amicus Curiae, its members, or its counsel made a monetary
contribution to its preparation or submission.

2
even, if applied improperly, negatively impact the
United State’s economy.
ALEC’s seminal, annual publication, Rich States,
Poor States 2 compares the economic position and
outlook of all 50 states based, in part, on tax policy.
This publication demonstrates that billions of dollars
and millions of Americans have fled higher tax states
for states with more tax-friendly climates. While a
state cannot vote for warmer weather, more oil
reserves, or a nice coastline, policymakers can make
sure that there is more capital in the hands of
taxpayers and businesses, making it easier for them
to save, earn, invest, and hire.
When a state’s international tax policy is at issue,
a principled approach is needed that affirms a state’s
sovereignty while reconciling weighty issues such as
foreign commerce and policy. Such a principled
approach should reconcile conflicts between state
taxing authority and preventing undue burdens on
foreign commerce.
ALEC legislative members have seen and
understood
that
states
following
certain
fundamentals of tax policy will produce economic
growth. Among other principles, a state should have
“[a]n effective tax system [which is] broad-based,
utilize[s] a low overall tax rate with few loopholes, and
avoid[s] multiple layers of taxation through tax
2

Jonathan Williams, Stephen Moore, & Arthur B. Laffer, Rich
States,
Poor
States:
ALEC-Laffer
State
Economic
Competitiveness Index,12th ed. (American Legislative Exchange
Council), 2019, https://www.alec.org/app/uploads/2019/04/2019RSPS-State-Pages_FINAL_WEB_R1.pdf

3
pyramiding.”3 Any state tax scheme should be based
on equity and fairness, which means that it should not
be used to “engage in discriminatory or multiple
taxation.”4
A state’s tax scheme should be guided by the
principle of competitiveness. The means that “[a] low
tax burden can be a tool for a state’s private sector
economic development by retaining and attracting
competition
from
other
states…
Effective
competitiveness
is
best
achieved
through
5
economically neutral tax policies.”
ALEC members believe that a state should offer
credits or equitable adjustments for taxes paid on a
foreign subsidiary’s income, regardless of whether the
subsidiary is owned by a subchapter C corporation (or
C-corp), a subchapter S corporation (S-corp), or an
individual. Applying the foreign dormant Commerce
Clause to state tax schemes will not eliminate a state’s
ability to tax, nor will it reduce taxing authority in the
states through the federal government. Ultimately,
the purpose of applying the foreign dormant
Commerce Clause is to avoid multiple, or double
taxation and to reconcile the authority of states with
respect to international tax policy.

American Legislative Exchange Council, ALEC Principles of
Taxation (2010, renewed 2019), https://www.alec.org/modelpolicy/statement-alec-principles-of-taxation/.
4 Id.
5 Id.
3

4
SUMMARY OF ARGUMENT
The Commerce Clause does not distinguish
between individuals or entities and the dormant
foreign Commerce Clause. See generally Comptroller
of the Treasury of Maryland v. Wynne, 575 U.S. ___,
135 S.Ct. 1787 (2015) and Japan Line, Ltd. v. Los
Angeles County, 411 U.S. 434 (1979). While the Utah
Supreme Court may have, in a hyper-technical sense,
accurately stated that this Court has not considered a
case involving individual (or S-corp) income tax and
foreign income, the state court was wrong to break
new ground arguing that the Commerce Clause places
no restrictions on the state’s ability to double tax
foreign income.
The Utah’s refusal to grant the petitioners either a
credit or equitable adjustment violates the principles
of Wynne, Kraft General Foods, Inc. v. Iowa
Department of Revenue and Finance, 505 U.S. 71
(1992), and Complete Auto Transit, Inc. v. Brady, 430
U.S. 274 (1977). Starting with Complete Auto, this
case requires that taxes challenged under the
Commerce Clause pass a four-pronged test. Among
the prongs, the third is that “the tax must be does not
discriminate against interstate commerce.” 430 U.S.
at 279.
If a tax discriminates against out-of-state income
by double taxing the foreign income, it violates the
Commerce Clause. Wynne, 135 S.Ct. at 1801-1802 and
Kraft, 505 U.S. at 82. It ought to make no difference
whether that income is taxed first in another state or
country.

5
The Founders, when debating and ratifying the
Constitution
had
a
somewhat
universal
understanding that the foreign Commerce Clause
deprived the states of any authority to set foreign
policy, especially tax policy. See THE FEDERALIST NO.
12 (Alexander Hamilton) (Discussing the benefits of a
federal union with respect to encouraging foreign
commerce and standardizing revenue regulations and
collection).
Aware of Founders’ views of foreign versus
interstate commerce, this Court added two
considerations to the four prongs of Complete Auto in
Japan Line to cases involving taxes on foreign
commerce. These two additional considerations are
whether the tax “creates a substantial risk of
international multiple taxation and… whether the tax
prevents the Federal Government from ‘speaking with
one voice when regulating commercial relations with
foreign governments.’” Japan Line, 441 U.S. at 451
(internal citations omitted).
Not only does this Court’s Commerce Clause
jurisprudence provide a solid footing for granting
review, tax policy also does so. Double taxation of an
individual’s foreign income is a powerful disincentive,
raising the effective tax rate paid, especially when
compared with taxes paid on domestic income. Over
half of the states protect taxpayers from double
taxation on foreign income. Mary Beth Lougen,
Alleviating Double Taxation on Foreign Income at the
State Level, Tax Management Multistate Tax Report
(Bloomberg BNA), 2014 WSTR 42, Oct. 17, 2014, at
10.

6
The United States also has multiple tax treaties
with foreign nations. Internal Revenue Service,
UNITED STATES INCOME TAX TREATIES – A TO Z,
https://www.irs.gov/businesses/internationalbusinesses/united-states-income-tax-treaties-a-to-z
(last visited January 8, 2020). These treaties ensure
that taxpayers are not subject to double taxation on
the federal, or national, level. A state, under proper
application of the Commerce Clause, should not be
able to risk national foreign policy by subjecting its
taxpayers to double taxation.
Utah’s tax policies, discriminating against foreign
income in favor of domestic income, clearly violate the
third prong of the Complete Auto test and fail to
satisfy either of the considerations in Japan Line. On
top of this, the Utah Supreme Court clearly erred by
refusing to recognize that the Commerce Clause
protects corporations and individuals. Because of
these errors, this Court should grant the Petition for
Writ of Certiorari.

7
ARGUMENT
The Utah Supreme Court’s decision is clearly
wrong. Utah’s policy of not providing credits or
equitable adjustments for foreign taxes results in
double taxation and operates as a powerful incentive
for its residents to engage domestic rather than
foreign commerce. Further, the state court’s decision
argues that the Commerce Clause does not apply to
individuals in contrast to this Court’s decision in
Wynne. The Founders intended the Commerce Clause
to empower the federal government, not the states, to
regulate commerce with foreign nations.
The Commerce Clause of the United States
Constitution provides that “Congress shall have
Power… To regulate Commerce with foreign Nations,
and among the several States, and with the Indian
Tribes.” U.S. Const. Art. I, § 8, Cl. 3.
Utah, like many states, taxes the income its
residents earn from within and without the state,
including income earned from foreign subsidiaries.
Consistent with the principles in Comptroller of the
Treasury of Maryland v. Wynne, 575 U.S. ___, 135
S.Ct. 1787 (2015), Utah offers credits or equitable
adjustments for taxes its residents pay to other states.
But unlike a number of other states, Utah does not
extend this same credit to income earned from foreign
subsidiaries. The net result is that residents with
foreign income are subject to double taxation on the
same income—once by the foreign government and
then again by Utah.
While the state follows the principles of Wynne, the
state supreme court’s decision threatens the

8
precedent by dismissing, offhand, the applicability of
the Commerce Clause, and specifically the dormant
foreign Commerce Clause, to individual taxpayers. In
doing so, the Utah Supreme Court essentially
determined that an individual’s choice to participate
in an S-corp results in a distinction without a
difference. See Steiner v. Utah State Tax Commission,
449 P.3d 189 (Utah 2019) at 198. The argument is
essentially that this Court has opined, numerous
times, on states’ tax schemes relating to C
corporations and foreign tax policy, but never on a
state’s tax scheme relating to individuals.
In the opinion of ALEC, the Utah Supreme Court
is correct on one factor: this Court has never
addressed whether the foreign Commerce Clause,
dormant or otherwise, applies to individuals to protect
them, and their economic activities, from overzealous
state tax policies impacting income from foreign
countries. This case presents a unique opportunity to
weigh the limits of state tax policy on individuals
within the taxing authority’s jurisdiction and to
correct the Utah Supreme Court’s failure to apply this
Court’s precedents—not just Wynne, but also
Complete Auto, and Japan Line, Ltd. and their
progeny.
A. The Founders’ Original Understanding of the
Foreign Commerce Clause Would Prevent
States from Discriminating Against Foreign
Commerce
The Commerce Clause may be broken into three
constituent parts, the regulation of commerce:
international, interstate, and with Indian Tribes.

9
While the construction of the Clause is “in parallel
phrases, there is evidence that the Founders intended
the scope of the foreign commerce power to be greater
[than the scope of interstate commerce].” Japan Line,
441 U.S. at 448; see also Kraft, 505 U.S. at 79 (“[T]he
constitutional prohibition against state taxation of
foreign commerce is broader than the protection
afforded to interstate commerce”). Because the
Founders intended the scope of the Commerce Clause
to provide greater protection with respect to foreign
commerce, “a more extensive constitutional inquiry is
required” when states seek to levy taxes against
foreign, international income. See id. at 446.
Many of the early discussions regarding the
Commerce Clause involved both foreign commerce
and tax policy. Randy E. Barnett, The Original
Meaning of the Commerce Clause, 68 U. CHI. L. REV.
101-147 (2001). For example, in Federalist No. 12,
Hamilton linked the need for the federal government
to oversee foreign commerce to standardized tax
policy and the ability to collect revenue.
As far as [a general union] could be conducive
to the interests of commerce, so far it must
tend to the extension of the revenue to be
drawn from that source. As far as it would
contribute to render regulations for the
collection of the duties more simple and
efficacious, so far it must serve to answer the
purpose of making the same rate of duties
more productive, and of putting it into the
power of the government to increase the rate,
without prejudice to trade.

10
THE FEDERALIST NO. 12 at 123-124 (Alexander
Hamilton) (John C. Hamilton, ed., 1998).
In Federalist No. 42, James Madison discussed the
need for the federal government to regulate foreign
commerce, placing it on the same plane as making
treaties, sending and receiving ambassadors, and so
on. THE FEDERALIST NO. 42 at 329 (James Madison)
(John C. Hamilton, ed., 1998).
The Founders also understood the dormant foreign
Commerce Clause to limit the taxing and regulatory
authorities of a state. Citing Brown v. State of
Maryland, 25 U.S. (12 Wheat.) 419 (1827), James
Kent noted that
[u]nder the power to regulate commerce, it
has been further decided that a state law,
requiring every importer of goods by
wholesale, bale, or package, to take out a
license, and pay for it, under certain penalties
or forfeitures for neglect or refusal was
repugnant to the Constitution of the United
States, and void; inasmuch as it belonged to
Congress to regulate foreign commerce…
1 COMMENTARIES ON AMERICAN LAW *439
(12th ed., O. W. Holmes, Jr., 1873).6

In Brown, Chief Justice Marshall noted that states have the
authority to tax their “own citizens, or [the citizens’] property
within [the state’s] territory” but that “the taxing power of the
state must have some limits. [A state’s authority to tax] cannot
reach and restrain the action of the national government within
its proper sphere… it cannot interfere with the regulation of
6

11
From
these
discussions,
those
in
the
Constitutional Convention, and those in the Ratifying
Conventions, it is clear the Founders intended for the
federal government to supplant the states with
respect to foreign commerce. The federal
government’s supplanting of state authority thus
justifies a “more extensive constitutional inquiry”
when a state’s policies, and particularly its tax
policies, discriminate against foreign policy or may
otherwise intrude upon authorities the Constitution
reserves for the federal government.
B. The Utah Supreme Court Failed to Conduct
the “more extensive constitutional inquiry”
required by Complete Auto and Japan Line, Ltd.
The idea that some state tax policies may be
limited received something of a renewed life since this
Court’s decision in South Dakota v. Wayfair, 585 U.S.
___, 138 S.Ct. 2080 (2018). According to the Court in
Wayfair, “Modern precedents rest upon two primary
principles that mark the boundaries of a State’s
authority to regulate interstate commerce. First, state
regulations may not discriminate against interstate
commerce; and second, States may not impose undue
burdens on interstate commerce.” Id. at 2090-2091.
This Court continued, stating “[t]hese principles also
animate the Court’s Commerce Clause precedents
addressing the validity of state laws.” Id.

commerce.” The Chief Justice seemed to suggest that a state’s
authority to tax ends where such a policy would “derange the
measures of Congress to regulate commerce.” 25 U.S. (12 Wheat.)
at 449.

12
A court will, thus, “sustain a tax against a
Commerce Clause challenge when the tax [1] is
applied to an activity with a substantial nexus with
the taxing state, [2] is fairly apportioned, [3] does not
discriminate against interstate commerce, and [4] is
fairly related to the services provided by the State.”
Complete Auto, 430 U.S. at 279.
This Court acknowledged in Japan Line that the
four-pronged test applies to taxies discriminating
against both interstate and foreign commerce. Despite
the applicability of the Complete Auto test, it is
insufficient for taxes discriminating against foreign
income. Because of this insufficiency, the Court
believe[d] that an inquiry more elaborate
than that mandated by Complete Auto is
necessary when a State seeks to tax the
instrumentalities of foreign, rather than
interstate commerce. In addition to answer
the
nexus,
apportionment,
and
nondiscrimination
questions
posed
in
Complete Auto, a court must also inquire,
first, whether the tax, notwithstanding
apportionment, creates a substantial risk of
international multiple taxation, and, second,
whether the tax prevents the Federal
Government from “speaking with one voice
when regulating commercial relations with
foreign governments.” If a state tax
contravenes either of these precepts, it is
unconstitutional under the Commerce
Clause.

13
441 U.S. at 451 (internal citations omitted). 7
The Court has applied the Complete Auto and
Japan Line tests separately. See, for example,
Wardair Canada, Inc. v. Florida Dept. of Revenue, 477
U.S. 1, 8-9 (1986). (“In the present case, appellant
concedes that Florida’s tax satisfies the four-part test
set out in Complete Auto… Appellant and the United
States as amicus curiae thus rely entirely on the final
factor identified in Japan Line.”) Thus, a case could
theoretically satisfy the four-prongs necessary to
sustain an interstate tax, but fail either, or both, of
the inquiries demanded by Japan Line.
As to the first of the two inquiries, the Utah
Supreme Court’s decision admits that Petitioners are
subject to double taxation. “It’s true that the Steiners
have suffered a ‘double tax detriment’ by being taxed
by both Utah and a foreign country.” The court,
though, justified the double taxation by determining
“Utah has not taxed the foreign income twice—it has
only taxed it once. The second tax detriment was at
the hands of a foreign sovereign.” Steiner, 449 P.3d at
201.

The Utah Supreme Court, as discussed in the Petition for Writ
of Certiorari, discussed Barclays Bank PLC v. Franchise Tax Bd.
Of California, 512 U.S. 298 (1994) to avoid Wynne. See Petition
at 19-20. The “one voice” argument is not as broad as the Utah
court suggests as it appears to apply not to the Complete Auto
tests, but to the second of Japan Line’s two prongs. “An
important premise underlying both decisions is this: Congress
may more passively indicate certain state practices do not
‘impair federal uniformity in an area where federal uniformity is
essential.’” 512 U.S. at 323 (emphasis original).
7

14
This is backwards. The Petitioners’ foreign income
is taxed before it is patriated into the United States
and Utah. See Petition for Writ of Certiorari at 7-8.
Utah’s income tax is the second time Petitioners’
foreign income is subject to taxation. This Court’s
review is warranted to remedy this clear
misstatement of tax policy and failure to apply either
of the inquires demanded by Japan Line.
C. The Commerce Clause Does Not Distinguish
Between Individuals and Corporations
While the Utah Supreme Court failed to apply the
two considerations in Japan Line, its primary failure
is the misapplication of both Wynne and Kraft. The
logical combination of the cases should have
established the premise that the foreign Commerce
Clause bars state policies discriminating against
foreign investments. And the focus should be not on
the form of the person or entity paying the taxes, but
on the practical effect of the policies.
The Utah Supreme Court sought to avoid this
Court’s holding in Wynne by focusing on the nature of
the taxpayer than the impact of the tax, arguing that
[n]o Supreme Court case considering the
Dormant Foreign Commerce Clause has
involved an individual taxpayer (or S
corporation shareholder). They have all
involved C corporations. The Supreme Court
has never indicated that a state taxing an
individual based on his residency in that
state—could run afoul of the Constitution by
failing to grant a tax credit against taxes
levied by foreign countries.

15
Steiner, 449 P.3d at 198 (emphasis added).
Nothing in the text of the Commerce Clause
suggests that the Founders intended to distinguish
between individuals and corporations. The Commerce
Clause empowers Congress, rather than the states, to
“regulate commerce with foreign nations.”
Maryland, in Wynne had a unique tax scheme that
resulted in residents paying taxes earned on out-ofstate income to both the original taxing state and
Maryland without credit or adjustment. The Wynnes,
much like Petitioners, owned shares in an S
corporation. They elected to pass the income through
to their personal taxes. Wynne, 135 S.Ct. at 1793. In
the decision invalidating the Maryland scheme and
protecting individual taxpayers from double taxation,
this Court relied on cases “involving the taxation of
the income of domestic corporations.” Id. at 1795.
Unlike the Utah Supreme Court, this Court made
no distinction between individuals, S corporations,
and C corporations. Instead, the Court focused on the
impact of the tax policy: did the policy discriminate
against interstate commerce by treating out-of-state
income differently than intrastate income? This focus
on the impact of tax policy is consistent throughout
the Supreme Court’s taxation Commerce Clause
jurisprudence, with the tests in both Complete Auto
and Japan Line designed to suss out the effect, if any,
of a state tax on interstate or foreign commerce.
In Kraft, this Court set aside a state tax scheme
that discriminated against foreign commerce by
taxing income from a company’s foreign subsidiaries
while providing allowances, or deductions, for

16
dividends received from domestic subsidiaries. Kraft,
505 U.S. at 74. In the decision, this Court noted that
the Foreign Commerce Clause recognizes that
discriminatory treatment of foreign commerce
may create problems, such as the potential for
international retaliation, that concern the
Nation as a whole. So here, we think that a
State’s preference for domestic commerce over
foreign commerce is inconsistent with the
Commerce Clause even if the State’s own
economy is not a direct beneficiary of the
discrimination.
Id. at 2370.
The Founders intended for the foreign Commerce
Clause to more robustly protect against state action
than the interstate Commerce Clause and the Court
in Wynne determined that the interstate Commerce
Clause protects individuals from state double
taxation. Similarly, in Kraft, this Court concluded
that disparate treatment of dividends from foreign
and domestic subsidies violates the foreign Commerce
Clause. Between the two cases, it should not have
been too difficult for the Utah Supreme Court to rule
that the Commerce Clause projects individuals (or S
corporations) from inequities between state and
foreign income tax policy and that there is really no
difference whether an individual or corporation is
seeking to enforce its rights.
Nothing in this brief or in any of the Court’s
jurisprudence suggests that a state cannot tax income
received from foreign subsidiaries. Instead,
precedents argue that just as a state may not double

17
tax income received in other states, so also it cannot
double tax foreign income. If the foreign income is
taxed at a rate lower than the state, the state may
offer a credit or adjustment and still tax the
difference. For example, if a foreign government taxes
the income received at 3.95 percent and a state taxes
at 4.95 percent, the state may offer a credit or
adjustment for the 3.95 percent and still collect one
percent through its income tax on the foreign income.
This would avoid the problem of double taxation and
preserve the state’s ability to tax its residents’ income.
D. State Double Taxation Is A Powerful
Disincentive for Foreign Investments and Risks
Establishing National Policy
In addition to the legal reasoning, there are
significant policy concerns in this case that require a
ruling from the Supreme Court. First, Utah’s tax code,
as it stands, currently does not offer a foreign tax
credit for income earned and taxed abroad but does
offer a credit for income taxes paid to other states. See
UTAH CODE ANN. §§ 59-10-104 (2018), 59-10-104.1,
and 59-10-1003.8 This results in the double taxation
of foreign income. Double taxation raises the effective
tax rate paid by income earners by applying the
foreign income tax rate and the state income tax rate
to the same reported adjusted gross income. By
increasing the effective tax rate on income earned
The Utah income tax code listed here is for 2008 or 2018. The
2019 tax rate will be 4.66% upon enactment of Senate Bill 2001
in February 2020. See 2019 Utah Senate Bill No. 2001, 63rd
Legislature – 2019 Second Special Session. For Petitioners, the
effective tax rates are those listed in the 2008 version of the Code.
8

18
abroad, Utah subsidizes domestic investment at the
expense of foreign commerce. Second, allowing states
to double tax foreign income works against tax
treaties with foreign governments currently in effect
and negatively impacts foreign relations.
Both policy problems can be solved by offering a
foreign tax credit or other equitable adjustment. A
foreign tax credit allows income earners who report
income earned abroad to claim a credit on state taxes
up to the value of the foreign taxes paid. For example,
if a Utah taxpayer reports $200,000 in income in
France, he or she must pay the French top marginal
income tax rate of 45 percent plus the Utah income
tax rate of 4.95 percent.9 On $200,000 in income, the
Utah taxpayer must pay $9,900 in state taxes in
addition to the French taxes levied on the same
income.
Over half of the states protect their taxpayers from
double taxation on foreign income. Income earners in
Arizona, Arkansas, Hawaii, Indiana, Iowa, Kansas,
Louisiana,
Maine,
Massachusetts,
Michigan,
Minnesota, Montana, New York, North Carolina,
South Carolina, Vermont and Virginia can claim some
form of a foreign tax credit, while Alaska, Florida,
Nevada, New Hampshire, South Dakota, Tennessee,
Texas, Washington and Wyoming do not tax earned
income at all. Mary Beth Lougen, Alleviating Double
Taxation on Foreign Income at the State Level, Tax
Management Multistate Tax Report (Bloomberg
BNA), 2014 WSTR 42, Oct. 17, 2014.

9

See note 8.

19
Just as there are many states that recognize the
costs of double taxation and offer a foreign tax credit,
there are many states insistent on double taxing
foreign sourced income. For example, California has a
similar policy to Utah where Californians must pay
both the foreign tax rate in addition to the state
personal income tax, which has the highest top
marginal rate of any state at 13.3 percent. See,
Lougen, Alleviating Double Taxation on Foreign
Income, above.10 California has the largest economy of
any state and constitutes 14.5% of the total US
economy. Todd Siebeneck and Catherine Wang,
Bureau of Economic Analysis, U.S. Department of
Commerce, BEA 19-19, GROSS DOMESTIC PRODUCT BY
STATE, FOURTH QUARTER AND ANNUAL 2018. The
economic losses to the United States from state tax
policy dissuading American participation in
international commerce is stark. California’s sheer
economic magnitude places the negative effects of
double taxation on foreign sourced income on a large
scale.
In addition to the economic consequences from
double taxation, Utah’s tax code is biased against
Utah taxpayers engaged in foreign commerce versus
Utahns concerned only with domestic business.
Utah’s tax code creates a foreign Commerce Clause
issue, because taxing foreign income doubly has a

See also, Jonathan Williams, Stephen Moore, & Arthur B.
Laffer, Rich States, Poor States: ALEC-Laffer State Economic
Competitiveness Index,12th ed. (American Legislative Exchange
Council), 2019, https://www.alec.org/app/uploads/2019/04/2019RSPS-State-Pages_FINAL_WEB_R1.pdf.
10

20
negative impact on American tax treaty negotiations
with foreign governments.
Petitioners qualified for the federal foreign tax
credit11 on the same income Utah denied a foreign tax
adjustment. Not only does Utah’s lack of a foreign tax
credit differ greatly from federal foreign tax policy and
the foreign tax policy of many states, but it differs
greatly from the policy of many other countries.
A total of 38 countries offer their taxpayers a
foreign tax credit, and many countries go so far as to
recognize the purpose of foreign tax credits by calling
their tax treaties with the United States “The
Agreement…for the Avoidance of Double Taxation.”
See, e.g. Internal Revenue Service, UNITED STATES
INCOME
TAX
TREATIES
–
A
TO
Z,
https://www.irs.gov/businesses/internationalbusinesses/united-states-income-tax-treaties-a-to-z
(last visited January 8, 2020), and GUIDE TO GOING
GLOBAL:
TAX,
DLA
Piper
(2019),
https://www.dlapiperintelligence.com/goingglobal/tax
/handbook.pdf. In fact, the United States has a tax
treaty with every one of its top 10 trading partners.
The treaties have the expressed purpose of avoiding
double taxation through a foreign tax credit or
deduction. Sarah Gray, These Are the Biggest U.S.
Trading Partners, Fortune (Mar. 7, 2018),
https://fortune.com/2018/03/07/biggest-us-tradepartners/, see also, IRS UNITED STATES INCOME TAX
TREATIES, above. In this case, Utah’s tax code lacking
a foreign tax credit and double taxing foreign income

11

26 U.S.C. § 901

21
is contrary to US foreign policy and may negatively
impact tax treaty negotiations.
Not only may allowing Utah to tax foreign income
without credits or equitable adjustments negatively
impact foreign tax policy and negotiations, but it may
result in retaliatory tax policies enacted by foreign
governments against Americans. By not offering a
foreign tax credit, Utah is effectively subsidizing
income earned domestically at the expense of foreign
investment by raising the cost of conducting
international business.
Subsidizing domestic economic activity at the
expense of international commerce sparked many
trade conflicts in the economic history of the United
States. For example, recent Canadian dairy subsidies
and Chinese industrial subsidies have resulted in
retaliatory tariffs. See, Evan Haynes, Trump’s Trade
Wars Have Mobilized Canada’s Dairy Cartel, Reason
(Jul. 24, 2018), https://reason.com/2018/07/24/trumpstrade-wars-have-mobilized-canadas/ and US-China
Trade Deal Will Be Signed on January 15: Trump,
Business
Today
(Jan.
1,
2020),
https://www.businesstoday.in/current/world/uschina-trade-deal-will-be-signed-on-january-15trump/story/392961.html.
Utah’s
discrimination
against international business through double
taxation distorts the economy to discourage American
capital from foreign countries and is strikingly like
the activities practiced by other countries notorious
for stoking trade conflicts.
Utah’s insistence on double taxing foreign income
is certainly bad policy and distorts American

22
participation in the global economy while potentially
working against the United States during tax treaty
negotiations. Clear impacts on the broader US
economy and American participation in global trade
call into question the state double taxation of foreign
income and highlight the need to grant the Petition
for Writ of Certiorari.
CONCLUSION
Without clarification from this Court on states’
powers to tax an individual’s income received from
international commerce, many states will continue to
enforce tax policies that discriminate against foreign
income, dampen American trade, and weaken the
abilities of Americans to create opportunities for
others. Disagreement between state courts on the
scope of the foreign dormant Commerce Clause breeds
uncertainty in lawmakers and their constituents,
while creating a tax code that is unpredictable and
unreliable. American business owners and investors
require a predictable tax code supported by clear
judicial opinions to make informed decisions and craft
long term plans for successful ventures.
The American Legislative Exchange Council, as
amicus curiae, respectfully requests that this Court
grant the Petition for Writ of Certiorari because our
legislative members require clarity in federal law and
policy in order to best represent their constituents.
Given the disagreement between the parties
regarding Wynne, Kraft, and Japan Line, states need
input in order to ensure their state tax policies are
aligned with Supreme Court jurisprudence and the

23
United States Constitution. ALEC members have
duties to their constituents and would benefit from a
clear legal landscape when crafting state tax policy
that relates to foreign trade.
Respectfully submitted,
/s/
Jonathon P. Hauenschild
Counsel of Record
Bartlett Cleland
American Legislative Exchange Council
2900 Crystal Dr., Ste. 600
Arlington, VA 22202
Main – (703) 373-0933
jhauenschild@alec.org

